No. ______

In the

Supreme Court of the United States
ROBERT M. GLEN,
Applicant/Petitioner,
v.
AMERICAN AIRLINES, INC.,
Respondent.
APPLICATION FOR EXTENSION OF TIME TO FILE
PETITION FOR WRIT OF CERTIORARI
To the Honorable Samuel A. Alito, Jr.
Associate Justice of the United States Supreme Court
And Circuit Justice for the Fifth Circuit

RYAN M. GOLDSTEIN
Counsel of Record
Reid Collins & Tsai LLP
1301 S. Capital of Texas Highway,
Building C, Suite 300
Austin, Texas 78746
(512) 647-6100
rgoldstein@reidcollins.com
Attorneys for Applicant Robert M. Glen

To the Honorable Samuel A. Alito, Jr., Associate Justice of the United
States Supreme Court and Circuit Justice for the Fifth Circuit:
Applicant-Petitioner Robert M. Glen (“Glen”) respectfully requests an
extension of time to file a petition for writ of certiorari. Sup. Ct. R. 13.5. The deadline
for Glen to file his petition is Monday, November 1, 2021, which is ninety days1 from
Monday, August 2, 2021, the date when the United States Court of Appeals for the
Fifth Circuit issued an order rendering judgment for Respondent American Airlines,
Inc. For good cause set forth herein, Glen requests that this deadline be extended by
45 days so that the new deadline would be Thursday, December 16, 2021.
BACKGROUND
This case arises under Title III of the Cuban Liberty and Democratic Solidarity
(LIBERTAD) Act, 22 U.S.C. § 6021 et seq. (the “Act”), which Congress passed in 1996.
In the Act, Congress sought “to protect United States nationals against confiscatory
takings and the wrongful trafficking in property confiscated by the Castro regime.”
22 U.S.C. § 6022(6). Title III of the Act grants to victims of these confiscations a
private right of action against any person now “trafficking” in confiscated property,
including those engaging in commercial activity that uses or benefits from confiscated
property. Id. §§ 6082(a)(1)(A) (express private right of action); 6023(13) (definition of
“trafficking”).
Pursuant to 22 U.S.C. § 6085(b), Title III’s private right of action was
suspended by the Executive Branch from March 1996 until May 2019, when the

Pursuant to Supreme Court Rule 30.1, one day was added to this calculation to move the due date
from Sunday, October 31, 2021 to the “next day that is not a Saturday, Sunday, federal legal holiday,
or day on which the Court building is closed,” namely, Monday, November 1, 2021.
1

1

Trump administration lifted the suspension for the first time. In the decision below,
the Fifth Circuit issued the first published appellate decision construing the Act,
holding that Glen satisfied Article III standing, but dismissing Glen’s claim as a
matter of statutory construction. Other actions arising under the Act are now pending
at the Third Circuit and the Eleventh Circuit, in addition to dozens of actions pending
in district courts across the country.
OPINIONS BELOW
The August 2, 2021 Opinion of the United States Court of Appeals for the Fifth
Circuit is reproduced at Appendix A. The August 3, 2020 Memorandum Opinion and
Order of the United States District Court for the Northern District of Texas is
reproduced at Appendix B.
JURISDICTION
This Court has jurisdiction under 28 U.S.C. § 1254(1).
REASONS EXTENSION IS JUSTIFIED
The specific reasons why an extension of time is justified are as follows:
1.

This case presents a substantial and important question of federal law:

whether victims like Glen are totally barred from asserting trafficking claims under
the Act, contrary to Congress’s intent.
2.

The Fifth Circuit’s opinion interprets a federal Act and remedial scheme

that has never been interpreted by this Court in light of the 23-year suspension of
the private right of action between passage of the Act in 1996 and 2019. This case

2

will present the Court’s first opportunity to decide or settle important and core
questions of national importance that are now arising under the Act for the first time.
3.

The requested extension also is necessary to accommodate pressing

deadlines in the undersigned’s other matters. These matters include an October 19,
2021 deadline to file of an opening brief in Glen v. Tripadvisor LLC et al., No. 21-1842
and Glen v. Visa Inc. et al., No. 21-1843, consolidated appeals in the Third Circuit of
two other trafficking actions brought by Glen under the Act.
CONCLUSION
For the foregoing reasons and good cause shown, Glen respectfully requests
that this Court grant this application for an extension of time to file a petition for
writ of certiorari for 45 days, up to and including December 16, 2021.
Dated: October 12, 2021

Respectfully submitted,
RYAN M. GOLDSTEIN
Counsel of Record
Reid Collins & Tsai LLP
1301 S. Capital of Texas Highway,
Building C, Suite 300
Austin, Texas 78746
(512) 647-6100
rgoldstein@reidcollins.com
Attorneys for Applicant
Robert M. Glen

3

